No.______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
MONWELL DWIGHT BOOTH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The Petitioner, Monwell Dwight Booth, through Counsel, asks leave to file
the attached petition for writ of certiorari, without prepayment of costs to proceed in
forma pauperis. Petitioner has been granted leave to so proceed in both the U.S.
District Court and the United States Court of Appeals for the Ninth Circuit. No
affidavit is attached inasmuch as the U.S. District Court appointed counsel for
Petition under the Criminal Justice Act of 1964.

DATED this 4th day of December, 2020.
/s/ Evangelo Arvanetes
EVANGELO ARVANETES
Assistant Federal Defender
Federal Defenders of Montana
2702 Montana Avenue, Suite 101
Billings, MT 59101
Telephone: (406) 259-2459
Counsel of Petitioner

